                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A09040028                                                                        Page 1 of 1



                 The University I received allegations that a Graduate Student (Subject) 2 conducting NSF-
          funded research 3 intentionally falsified data and results, and plagiarized portions of her draft
          master's thesis.

                 The University conducted an inquiry into the allegations and concluded there was sufficient
          evidence to warrant an investigation. The University contacted us and we referred the matter to the
          University for investigation.

                  The University concluded, based on a preponderance of the evidence, that the Subject
          intentionally falsified data, deemed a significant departure from accepted practices, and took
          actions to protect the University's interests.

                  We adopted the University's findings. We concluded, based on a preponderance of the
          evidence, that the Subject intentionally falsified data, deemed a significant departure from accepted
          practices, and recommended actions to be taken to protect the federal interest. The Senior Advisor to
          the Director concurred with our recommendations.

                   This memo, the attached Report of Investigation, and the Senior Advisor to the Director's
          letters constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11 /02)
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




       OFFICE OF THE
         DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




        Re: Notice of Debarment


Dear

                  the National Science Foundation ("NSF") issued to you a Notice of Proposed
Debarment ("Notice"), in which NSF proposed to debar you from directly or indirectly obtaining
the benefits of Federal grants for a period of three years. As reflected in the Notice, NSF
proposed your debannent for falsifying data and materials in connection with research that was
funded by NSF. In addition, NSF took additional administrative actions against you in
accordance with NSF's regulations governing research misconduct. In that Notice, NSF
provided you with thirty days to respond to the proposed debannent.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred u n t i l _ Debarment precludes you from receiving Federal financial and non-
financial assistance and benefits under non-procurement Federal programs and activities unless
an agency head or authorized designee makes a detennination to grant an exception in
accordance with 2 CFR 180.135. Non-procurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpmi 9.4 for the period of this debannent.
2 CFR 180.925. D1Iring the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Bra.x1ch of the Federal Government.

Lastly, please note that, in t h e _ Notice, NSF also took the following actions against
you, which continue to remain in effect:
                                                                                         - 2 -

   •   From the end of your debarment period t h r o u g h _ you are required to submit
       certifications to NSF's Office of Inspector General that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material.

   •   From the end of your debarment period t h r o u g h _ you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material. These
       assurances must be submitted to NSF's Office ofInspector General.


Should you have any questions regarding the foregoing, please c o n t a c t _ Assistant
General Counsel, at (703) 292-8060.




                                                   Sincerely,

                                                ~~~
                                                   Dr. Wanda Ward
                                                   Senior Advisor to the Director
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON .BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICEOFWE
       DIRECTOR
                                           -
CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Proposed Debarment and Notice of Research Misconduct
               Determination




In 2008, you were a graduate student at                              conducting research funded
by the National Science Foundation ("NSF"). As documented inthe attached investigative
report, you intentionally falsified data and materials in connection with this research.

In light of your misconduct, this letter serves as formal notice that the NSF is proposing to debar
you from directly or indirectly obtaining the benefits of Federal grants for a period of three years.
During your period of debarment, you will be precluded from receiving Federal financial and
non-financial assistance and benefits under non-procurement J<ederal programs and activities. In
addition, you will be prohibited from receiving any Federal contracts or approved subcontracts
under the Federal Acquisition Regulations ("FAR"). Lastly. during your debarment period, you
will be barred from having supervisory responsibility, primary management, substantive control
over, or critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government.

In addition to proposing your debarment, I am requiring that you submit certifications, and that a
responsible official of your empioyer submit assurances, that any proposals or reports that you
submit to NSF do not contain plagiarized, falsified, or fabricated material. This requirement will
be in .effect for three years from the expiration of your debarment period. ·
                                                                                             Page 2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF . .. " 45 CFR 689.I(a).
Falsification is defined as "manipulating research materials, equipment, or processes, or
changing or omitting data or results such that the research is not accurately represented in the
research record;" 45 CFR 689.1 (a)(2). A finding of research misconduct requires that:

       (I) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

As the OIG's report demonstrates, after your transgenic lines of Drosophila were destroyed, you
falsified results of experiments you performed, and falsified data and research materials that you
provided to your thesis adviser (who was serving as the Principal Investigator on the NSF grant).
You admitted to committing these actions. Thus, your conduct unquestionably constitutes
falsification. I therefore conclude that your actions meet the applicable definition of "research
misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
Irrv'estigative Report, NSF has determined that, based on a preponderanee of the evidence, Y'lUf
falsification was committed intentionally and constituted a significant departure from accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR689.3(a)(I). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).
                                                                                             Page 3
In determining the severity of the sanction to impose for research misconduct, I have considered
the. seriousness of the misconduct; the fact that it was committed intentionally; the fact that you
had previously plagiarized paragraphs of your master's thesis from another student's published
work; the lack of impact your misconduct had on the research record; and the determination that
it was not part of a pattern of misconduct. I have also considered other relevant circumstances.
45 CFR 689.3(b).

I, therefore, take the following actions:

   •   For three years after the expiration of your debarment period, you are required to submit
       certifications that any proposals or reports you submit to NSF do not contain plagiarized,
       falsified, or fabricated material; and                       .

   •   For three years after the expiration of your debarment period, you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or: fabricated material.


All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.


Debarment

Regulatory Basis for Debarment

PUrsuant to 2 CFR 180.800, debarment may be imposed for:


       (b)     Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -


               (1)     A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or



               (3)     A willful violation of a statutory or regulatory provision or'requirement
                       applicable to a public agreement or transaction; or
                                                                                              Page 4
        (d)    Any other cause of so serious or compelling Ii nature ·that it affects your present
               responsibility.

 In any debarment action, the government must establish the cause for debarment by a
 preponderance ofthe evidence. 2 CFR 180.850. In this case, you knowingly falsified results of
 experiments, data, and research materials. Thus, your actions support a cause for debarment
 under 2 CFR 180.800(b) and (d) .


. Length ofDebarment

 D~barment must be for a period commensurate with the seriousness of the causes upon which an
 individual's debarment is based. 2 CFR 180.865. Generally, a period ofdebatment should not
 exceed three years but, where circumstances warrant, a longer period maybe imposed. 2 CFR
 180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
 and mitigating factors set forth in' 2 CFR 180.860, we are proposing your debarment for three
 years.


 Appeal Procedures for Finding of Research Misconduct and Procedures Governing
 Proposed Debarment

 Appeal Procedures for Finding ofResearch Misconduct

 Under NSF's regulations, you have 30 days after receipt ofthis letter to submit an appeal Mthis
 finding, in writing, to the Director of the Foundation. 45 CFR 689.1O(a). Any appeal should be
 addressed to the Director at the National Science Foundatioil, 4201 'Nilson Boulevard,
 Adington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, the
 decision on the finding of research misconduct will become final. For your information, w,e are
 attaching a copy of the applicable regulations.


 Procedures Governing Proposed Debarment

 The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
 decision-making. Under these regulations, you have 30 days after receipt ofthis notice. to
 submit, in person or in writing, or through a representative, information and argument in
 opposition to this debarment. 2 CFR 180.820. Comments submitted within the 30-day period
 will receive full consideration and may lead to a revision of the recommended disposition. If
 NSF does not receive a response to this notice within the 30-day period, this debarment will
 become final.

 Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
 Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
                                                                                        Page 5
Virginia 22230. For your infonnation, we are attach~ng a copy ofthe Foundation's regulations
on non-procurement debannent and FAR Subpart 9.4.

Should you have any questions about the foregoing, please contac~ssistant
General Counsel, at (703) 292-5054.



                                                  Sincerely,


                                             ~    Wanda Ward
                                                  Senior Advisor to the Director



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
CONFIDENTIAL                                                                     CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A09040028


                 This Confidential Report of Investigation is provided to you .
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.c. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                            NSF OIG Form 22b (11/06)
CON FIDENTIAL                                                                      C ONFIDENTIAL


                                       Executive Summary

Allegation:      A Graduate Student conducting NSF-funded research was alleged to have:
                 intentionally falsified data and results, and to have plagiarized portions of her
                 draft master's thesis.

University
Inquiry:         The University conducted an inquiry into the allegations and concluded there was
                 sufficient evidence to warrant an investigation.

University
Investigation:
                 Investigation Committee concluded, based on a preponderance of evidence, that
                 the Subject intentionally falsified data, deemed a significant departure from
                 accepted practices. The Subject was dismissed from the University.

OIG
Assessment:      OIG concurs with the University assessment.
                       • The Act: Subject falsified data.
                       • Intent: The Subject acted intentionally.
                       • Standard of Proof: A preponderance of evidence supports the
                          conclusion that the Subject falsified data.
                       • Significant Departure: The Subject' s actions represent a significant
                          departure from accepted practices.
                       • Pattern: Undetermined.

OIG Recommends:
                         •   Make a finding of research misconduct.
                         •   Send the Subject a letter of reprimand.
                         •   Debar the Subject from receiving Federal funds or participating in any
                             federally- funded project for a period of 3 years.
                         •   Require certifications for a period of 3 years following debarment
                             period.
                         •   Require assurances for a period of 3 years following debarment period.
CONFIDENTIAL                                                                                  C ONFIDENTIAL


                                                University's Inquiry

       The Universit/ received allegations that a Graduate Student (Student) 2 conducting NSF-
               3
funded research :

                •     "intentionally misled her                       4 by misrepresenting strains of
                      Drosophila in the lab and by misrepresenting experimental results of their
                      characterization; ...
                •     deviated significantly from accepted laboratory practices of maintaining research data
                      in the lab sharedrive; . ..
                •     plagiarized from a journal pUblication portions of her thesis; [~md] ...
                •     fabricated data on a DNA sample."s

         • • • became aware of the misconduct when he could not locate the Student's Drosophila
strain. 6 He asked the Student and she eventually provided the vials.           however was unable to
recreate the correct strain from the vials provided. When confronted, the Student admitted she
provided         with a different D!o~rain.7                   subsequently discovered she also
provided this incorrect strain to ~ and had "accidentally or deliberately,,9 provided the
wrong DNA sample to another                student researcher. 10 Additionally, _identified gaps in
her lab notebooks. He wrote:

                      This calls into question [the Student]'s entire body of work related
                      to the transgenic lines, i.e., most of the experiments she conducted
                      over the last two years, since we do not know when the lines were
                      10St. ll

                      Given that the transgenic fly strains [the Student] produced no
                      longer exist, we cannot repeat the bulk of the experiments she
                      conducted over the past two years and thus confirm that she indeed
                                             12
                      had created the lines.




                 entitled '
                        " PI:               Co-PI:                                                  Award:
           The Subject "was supported as a graduate research assistant during the summer months of2005, 2006, and
2007 on NSF grant [ )" and "her work also used supplies and consumables from this funding source" (Tab 4, pg 1).
(Note: page numbers noted here from Tab 4 are the page numbers generated from Adobe .pdf)
4 . . . . . . . . . . . . . . . ._ _
5 Tab 1, pg 1.
6 Tab 4, pg 222-223 .
7 Tab 4, pg 153-154.

8. . . . . . . . . . . . . . . . . . . . . .                         (Tab 4, pg 223).
9   Tab 4, pg 223 .
10 • • • • • •
IITab 4, pg 222.
12 Tab 4, pg 223.




                                                          2
CONFIDENTIAL                                                                                         CON FIDENTIAL



        Lastly,_found entire verbatim paragraphs I 3 of her master's thesis plagiarized from
another            published work.14

           Per policy, I 5 a University official 16 conducted an informal inquiry. The official wrote:

                   While [the Student] does not contest the basic allegation of
                   misconduct, there remains to be clarified the timeline and exact
                   behavior that resulted in the misconduct. From my initial inquiry, I
                   can only conclude that at some point an error was committed by
                   [the Student] that destroyed the new strains of fruit flies she had
                   developed (that were central to her research) and that exp.erimental
                   work performed and reported by [the Student] after that foint were
                   either misrepresented or fabricated to cover up the error. 7

       She concluded there was sufficient evidence to warrant further investigation 18 and the
University convened a formal inquiry panel (Panel).

        The Panel reviewed documents including the allegation letter, em ails between involved
parties, the Student' s thesis, shipment logs, and the Student's written statement. 19 The Panel also
interviewed the Student, during which she admitted:

               •   the transgenic lines of Drosophila she prepared around December 2006/January 2007
                   were destroyed on June 12, 2008, a date earlier than her initial estimate;
               •   misrepresenting the results of experiments she performed July-August 2008 • • •
               •   knowingly misleading_when claiming data were from a Drosophila strain that
                   had been destroyed;
               •   misrepresenting research materials, when she provided_with strains she said
                   were her transgenic lines;
               •   not posting her research data on the lab sharedrive;2o and
               •   writing portions of her thesis by copying parts of another student' s pUblication. 21

       The Panel unanimously concluded that the Student "knowingly engaged in multiple acts of
research misconduct, as defined by the [University] policy,,,22 specifically, "misrepresentation of
data and research materials as confirming with definition (b) of research misconduct,,23 and


J3   Tab 4, pg 149-152.
14

                                                                                                                (Tab 4, pg
132-143).
IS Tab 2.

16 • • • • • • • • • • • • • • •_
17 Tab 4, pg 224.
18 Tab 4, pg 224.
19 Tab 1, pg 2.
20 Not sure lab practice
21 Tab 1, pg 2-3 .
22 Tab 1, pg 3.
23 Tab 1, pg 3. Definition (b) is falsification within the University's research misconduct policy (Tab 2, pg 1).




                                                              3
CONFIDENTIAL                                                                                   CONFIDENTIAL


plagiarism. 24 The Panel however did not investigate the allegation of fabricated data on a DNA
sample or inconsistencies regarding her larvae shipment. 25


                                          Subject Response to Inquiry

         In a written response to the inquiry,26 the Subject said the misconduct began in summer
2008, and that her "data were all accurate and legitimate until the accidental loss of the lines in June
2008.,,27 She explained she had guessed the date quoted in her confession email 28 because she
wanted to confess before she lost the courage.29 She stated that "since this initial email the dates and
information I have given have been explained with complete accuracy and truth.,,3o She asserted she
received the larvae directly through the mail and provided documentary evidence. 31 She said the
falsification of the DNA sample was accidental and caused by a vial tag falling off. 32

        Regarding the plagiarism, she explained:

                  I was unaware that if your methods were exactly the same as a
                  previous lab member that you couldn't simply write it (with a
                  citation) in the same way. I always knew that for non-method you
                  must provide your own wording, however methods are essentially
                  a step by step instruction manual. I performed the experiments in
                  the exact same manner as [ ]. I now know that this is unacceptable
                  and I would never think to do something like that again. I only
                  wish that when I         saw my draft that he would have brought it
                  [to] my attention. I would have changed in immediately. I truly
                  feel this was an honest mistake and I never would have done it had
                  I known. 33

        The Subject concluded:




                                         . . I truly apologize for the problems I have
                  caused to the _          lab and to [the University].34


24 Tab 1, pg 3.
25 Tab 1, pg 4.
26 Tab 4, pg 8-9.
27 Tab 4, pg 8.
28 The Subject originaJly said the misconduct began at the end of July 2008 (Tab 4, pg 153).
29 Tab 4, pg 8.
30 Tab 4, pg 8.
31 Tab 4, pg 8. Documentary evidence is located in Tab 4, pg 10-13 .
32 Tab 4, pg 9.
33 Tab 4, pg 9.
34 Tab 4, pg 9.




                                                            4
CONFIDENTIAL                                                                              CONFIDENTIAL



                                         University Investigation

        The University informed NSF OIG of the allegations and its impending investigation. We
referred the matter to the University and deferred our investigation pending its investigation. 35

        Based on additional interviews and review of materials, the investigation committee
(Committee) reaffirmed that the Subject "engaged in multiple acts of research misconduct.,,36 The
Committee determined the Subject falsified data and materials intentionally: "She knew the actions
she was taking were not appropriate, and did them with the intent to deceive 1      I. After the initial
                                                      37
error, she willfully perpetuated the misrepresentation which "constituted a significant departure
from accepted practices among her peers and among researchers in the community ofbiologists.,,38

       Regarding the plagiarism, the Committee determined the Subject acted carelessly: "She was
negligent in carefully describing her experimental procedures in a manner that could be expected of a
graduate student, particularly one who had taken a bioethics course at the University.,,39

       Due to "contradictory testimony in regard to the labeling oftubes,,,40 the Committee was
unable to determine "with absolute certainty as to whether [the Subject] actively misrepresented her
DNA sample or the label fell off the tube with the correct sample and was discarded or lost.,,41

        Overall, the Committee determined "[the SUbject]'s actions did not have a significant impact
on the research record" since the "plagiarism was limited to the first draft of an unpublished thesis"
and since no publication contained her misrepresented data. 42 However, it found her actions had a
significant effect on other researchers 43 whose financial resources, time, and effort were squandered
in producing invalid results. 44

       In conclusion, the VPR45 affirmed "that the record, and most notably [the Student]'s own
statements, amply support a determination that she falsified data in a matter that seriously deviated
from accepted practices among research biologists and plagiarized portions of her thesis.,,46


                              Subject's Response to Investigation Report

        The Subject concurred with the Report. 47 She only reiterated she had labeled the DNA vial
with tape; asserted the data in question was never used for poster or presentation; and corrected that

35 Tab 3.
36 Tab 4, pg 6.
37 Tab 4, pg 6.
38 Tab 4, pg 285.
39 Tab 4, pg 6.
40 Tab 4, pg 7.
41 Tab 4, pg 7.
42 Tab 4, pg 6. The Committee noted the Subject presented the • • • • • • • • as a poster at a conference.
43 The PI,                             (Tab 4, pg 6).
44 Tab 4, pg 6.

45 . . . . . . . . . . . . . . . . . . . . . ..
46   Tab 4, pg 2.
47   Tab 4, pg 286-287.


                                                       5
CONFIDENTIAL                                                                                  CONFIDENTIAL


she stopped working in the lab the last week of August 2008 and did not conduct experiments during
                       48
the Fall 2008 semester. She said:

                    I also want to state that while I did keep information from I I• •
                    for a time during the summer of 2008, I did confess what I had
                    done in early September 2008. I realize my actions were very
                    wrong, but I desperately tried to make them right and since then I
                    have been honest.,,49


                                           University Adjudication

       The Associate Dean 50 dismissed the Student from the University,5! stating "The research
misconduct you were found to have engaged in represents a significant breach of trust and a serious
breach of research ethics. ,,52


                                               OIG's Assessment

       The University provided OIG with its reports and investigatory materials, and OIG invited
                               53
the Subject to provide comment. The Subject responded:

                    I don't believe I have any additional comments to add to the report.
                    I would like to apologize to you for my poor judgement [sic] and
                    thank you for the work you do. I have been as cooperative as
                    possible throughout this process. 54

       We assessed the Report and deemed it to be both accurate and complete. We further
concluded the University followed reasonable procedures in conducting its investigation. Therefore,
                                                                      55
we adopted the findings in lieu of conducting our own ·investigation.

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence. 56

48   Tab 4, pg. 286-287.
49   Tab 4, pg 286.
S0 . . . . . . . . . . . . . . . . ..
51 Tab 5
52 Tab 5, pg 1.
53 Tab 6 .
54 Tab 7 .
55 T he Committee could not conclusively determine whether the Subject "actively" misrepresented DNA samples, and did
not address the laboratory practice issue; these issues would not substantively change the recommendations of our
investigation. Further, given the Committee's conclusion that the Subject carelessly committed the plagiarism, the
remainder ofthis report focuses on the Subject's primary misconduct - falsification - and considers the plagiarism an
aggravating factor, as discussed below.
56 45 C.F .R . §689.2(c).




                                                          6
CONFIDENTIAL                                                                              CONFIDENTIAL




                                                     The Acts

         The Committee found, by a preponderance of the evidence, that the Subject falsified data and
materials, which constituted a significant departure from the accepted practices of her research
community. Specifically after her transgenic lines of Drosophila were destroyed, the Subject
falsified results of experiments she perforrried, falsified data she provided     and falsified
research materials she provided          We concur with the Committee's assessment.



       The Committee found the Subject acted intentionally in falsifying data and materials. The
Subject acknowledged she falsified results of her experiments and data and materials she provided
• • • after her transgenic lines of Drosophila were destroyed, rather than tell_what had
occurred. We concur with the Committee's assessment.

                                                Standard of Proof

       Based on the Subject's own admissions and documentary evidence, the Committee found by
a preponderance of evidence that the Student falsified data. We concur with the Committee that the
Subject's actions and intent were proven based on a preponderance of evidence.

        We conclude that the subject was found, by a preponderance of evidence, to have
intentionally falsified data and materials, thereby committing an act of research misconduct. s7


                                       OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                     (1) How serious the misconduct was; (2) The degree to which the
                     misconduct was knowing, intentional, or reckless; (3) Whether it was
                     an isolated event or part of a pattern; (4) Whether it had a significant
                     impact on the research record, research subjects, other researchers,
                     institutions or the public welfare; and (5) Other relevant
                     circumstances. 58

                                                   Seriousness

         The Subject's actions are an egregious violation of the standards of scholarship, and of the
 fundamental tenets of research ethics. The Subject's intentional data falsification continued until •
• repeatedly requested the data and an explanation of a contradictory analysis. The Subject's
 actions adversely affected her immediate research community. Specifically, her actions affected the

57   45 C.F.R. part 689.
58   45 C.F .R. § 689 .3(b).


                                                         7
CONFIDENTIAL                                                                                         CONFIDENTIAL



research and integrity of three other researchers who squandered precious resources, time, and effort
in performing inherently flawed research .

                                                     Degree ofIntent

       We found no evidence to mitigate our conclusion that the Subject intentionally falsified data.
Her actions and admissions indicate she decided to falsify her data to deceive_

       The Subject's actions were an intentional violation of several tenets of the research
community. As a student, she violated basic expectations of academic behavior. Universities
reasonably expect their graduate students to honestly perform the research assigned as a part oftheir
graduate studies. The Subject's dishonesty and actions are an affront to both the academic
community and to the basic expectations of professional honesty and integrity.

        Further, the Subject intentionally violated the honesty expected within the student-mentor
relationship. The relationship between students and their mentors is a special, trusted relationship
within the research community. The Subject violated the trust of her mentor by lying to him and
providing him with false materials, rather than forthrightly discussing her problems with him .

                                                           Pattern

        We are unable to conclusively determine whether the Subject's acts are part of a larger
pattern because it is unclear whether she also actively fabricated DNA samples. We therefore do not
find a pattern.

                                                        Aggravating Factor

        The Committee determined the Subject carelessly plagiarized entire paragraphs of her
master' s thesis from another student's published work. The Subject explained she had been unaware
that one could not copy a method section from another researcher when using the identical
methodology. While we do not consider plagiarism committed carelessly to be research
misconduct,59 we conclude that the Subject's actions in copying material from another researcher is
an aggravating factor in this matter.


                                                    Recommendation

Based on the evidence,         ola recommends that NSF:
                •   send a letter of reprimand to the Subject informing her that NSF has made a finding of
                    research misconduct;60




59   We did not make our own determination regarding level of intent for the plagiarism , but adopted that of the University.
60   A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(1)(i)).


                                                               8
CONFIDENTIAL                                                                           CONFIDENTIAL



             •   debar the Subject from receiving Federal funds or participating in any federally-
                 funded project for a period of3 years commencing on the date of NSF's finding of
                 research misconduct;61

             •    require the Subject to certify to the Assistant Inspector General for Investigations
                  (AlGI), Office of Inspector General, that proposals or reports she submits to NSF do
                  not contain plagiarized, falsified, or fabricated material for 3 years after the
                  debarment period;62 and

             •    require that the Subject submit assurances by a responsible official of her employer to
                  AlGI, Office ofInspector General, that any proposals or reports submitted by the
                  Subject to NSF do not contain plagiarized, falsified, or fabricated material for 3 years
                                              63
                  after the debarment period.                                     .


                          The Subject's Response to Draft Investigation Report
                                                                                              64
       We provided the Subject with a copy of our draft report and attachments for comment.
The Subject submitted a response 65 , in which she asked us to reconsider our recommended actions
because:

         1) At the time misconduct occurred I was a masters student, not established in a
            career of scientific research. I did make an incredibly irresponsible decision
            and will pay for this choice the rest of my life. Because of my actions I was
            dismissed from graduate school after 4 years with no degree. My permanent
            record at th                          displays this. I will never be able to earn
            an advanced degree. My life has been and will continue to be drastically
            changed because of my errors in judgement [sic] in July 2008.

        2) None of the work in question had been published therefore it did not have an
           effect on the research record. The effects of misconduct were not broad
           spectrum to the general research public.

         3) Neither NSF OIG or [sic] the University made a finding that the misconduct
            was part of a larger pattern, it was a brief and isolated event at the end of
            Summer 2008 . Most importantly, it will never happen again.

         4) I do not intend to ever attempt employment at any facility which receives
            funds from the U.S . government. More specifically, I will not pursue
            employment in any scientific research laboratory or facility.



61 Debarment of an individual is a Group III action (45 C.F.R. §689.3(a)(3)(iii» .
62 Certification by an individual is authorized in 45 C.F.R. §689.3(a).
63 Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(1)(iii».
64 Tab 8.

65 Tab 9.




                                                             9
C ONFIDENTIAL                                                                     CONFIDENT IAL



She added that she is "already enduring the truly deserved punishment for this particular case" and
fears she may not be able to find employment as an administrative assistant in a local elementary
school if she is debarred.

        We determined the Subject' s reply did not provide adequate reason for OIG to change its
original determinations and. recommendations, as stated above .




                                                  10
